 

 

IN THE
SUPREME COURT OF THE UNITED STATES
October 2020 Term

SCOTT TUCKER,
Petitioner,
v.

UNITED STATES,
Respondent.

 

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

Petitioner ScottTucker, by his attorney, Beverly Van Ness, Esq., respectfully
moves for leave to proceed in forma pauperis in connection with the above-
captioned petition for certiorari. Petitioner was granted leave to proceed in forma
pauperis in the United States District Court for the Southern District of New York,
and in the United States Court of Appeals for the Second Circuit. Ms. Van Ness
was appointed by the Second Circuit Court of Appeals pursuant to the Criminal

Justice Act, 18 U.S.C. ยง 3006A et seq., to represent petitioner on direct appeal,
and her appointment is continued for purposes of this petition for certiorari.

WHEREFORE, it is respectfully requested that Scott Tucker be granted

leave to proceed in forma pauperis in these proceedings.

Dated: January 18, 2021

TO: The Solicitor General of
the United States
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, DC 20530-0001

Respectfully submitted,

: Van Mego

Beverly Van Ness

Appointed Attorney for
Petitioner Scott Tucker

233 Broadway, Suite 2704

New York, New York 10279

(212) 274-0402
